No. 19-107
In The

Supreme Court of ti)e fHniteb States
Vinc

ent

Asaro ,

Petitioner,

v.
United

States

of

Ameri

ca

,

Respondent.
On Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, Anton Metlitsky, a member of
the bar of this Court, certify on this 18th day of September 2019, that the Brief of
the National Association of Federal Defenders and FAMM as Amici Curiae
Supporting Petitioner in the above-captioned case contains 5,800 words, excluding
the parts of the document that are exempted by Supreme Cou;rt Rule 33.1(d).

Anton Metlitsky

